U.S. CENSUS BUREAU
2020 Census Planning:
Delays with 2010 Census
Research Studies May
Adversely Impact the 2020
Decennial Census




FINAL REPORT NO. OIG-12-023-1
APRIL 5, 2012



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington, D.C. 20230




 April 5, 20 12

 MEMORANDUM FOR: 	 Robert M. Groves 

                   Director, U.S. Census Bureau 



FROM: 	                                      ~~~- ------
                              Ron Prevos~ j/ ~~'"'-
                              Assistant Inspector eneral for Economic
                               and Statistical Program Assessment

SUBJECT:                      2020 Census Planning: Delays with 20 I0 Census Research Studies
                                May Adversely Impact the 2020 Decennial Census
                               Final Report No. 0/G-/2-023-1

We are providing our final report on the Census Bureau's ("the Bureau's") early 2020 Census
planning efforts. Our review (a) evaluated the Bureau's efforts to improve the 2020 Census
design, focusing on how the results of the Bureau's evaluation plans will inform the new
decennial design, and (b) evaluated and monitored the implementation of the Bureau's
management initiatives designed to enhance organizational change.

We found that the assessments and other studies from the previous census cycle are behind
schedule, raising concerns that complete results will not emerge in time to inform Census 2020
research-or help the Bureau contain life cycle costs within its $12.8-18 billion (nominal
dollars) estimate. We also highlighted the importance of developing a comprehensive risk
management plan, which recognizes that the roles and responsibilities of the Department's and
the Bureau's new risk management offices are evolving. Finally, we summarized the various
organizational changes that will impact both the planning and the implementation of the next
decennial census.

We have received your response to our draft report. Where appropriate, we have modified
this final report based on this response. The formal Bureau response is included as appendix D.
(We summarized your response, and OIG comments, starting on page I 0.) The final report will
be posted on the OIG's website pursuant to section 8l of the Inspector General Act of 1978,
as amended.

In accordance with the Department Administrative Order 213-5, please provide us with an
action plan responding to all report recommendations within 60 days of the date of this
memorandum.

We thank you and your staff for the courtesies extended to us during this review. Please direct
any inquiries regarding the report to me at (202) 482-3052 or Carol Rice at (202) 482-6020.

Attachment
cc: 	 Mark Doms, Chief Economist, Economics and Statistics Administration
      Frank Vitrano, Associate Director for the 2020 Census, U.S. Census Bureau
      Pam Moulder, Program Analyst, U.S. Census Bureau
      Adam Miller, Audit Liaison, U.S. Census Bureau
                                             Report In Brief                                            APRIL 5, 2012




Background                               CENSUS BUREAU
The Census Bureau is directed by law     2020 Census Planning: Delays with 2010 Census Research
to carry out the decennial census,
which is mandated by the Constitu-       Studies May Adversely Impact the 2020 Decennial Census
tion. Decennial census data are used
to apportion seats in Congress; re-      OIG-12-023-I
draw congressional districts; and
allocate hundreds of billions of dol-    WHAT WE FOUND
lars in federal funds for state and
local governments, as well as other      The Census Bureau recognizes that it must fundamentally change its decennial design to
public and private sector purposes.      improve the enumeration quality of the 2020 Census and contain life cycle costs within
                                         its preliminary estimates of $12.8–18 billion (nominal dollars). More specifically, the
For the 2020 Census, the Bureau has      Bureau should reassess how it updates its address list, enumerates households, and
reorganized to improve its research      utilizes field and IT infrastructure in this critical effort. The Census Program Evaluation
and testing, as well as develop more     and Experiments (CPEX) program provides lessons learned from the previous decennial
cost-effective program processes and     that inform the next design. With the Bureau’s timely completion of 2010 CPEX studies
methods. Among the changes are a         in question, we found that:
reorganization of its regional office
structure, the creation of new direc-      Delays In Completing 2010 Census Studies Could Adversely Impact the Bureau’s Efforts to
torates, and the launch of a new Of-       Improve the Decennial Census Design. Our review of select early 2020 Census planning
fice of Risk Management and Program        efforts found that the assessments and other studies from the previous census cycle
Evaluation. Also, the Bureau is work-      lagged behind schedule. Bureau officials stated that delays occurred because of new
ing to improve its cost estimation         processes, untimely funding, and project team challenges. We found that attrition, staff
process for the next decennial cen-        reassignments, and competition for resources may have also impacted the project
sus; it will update estimates as re-
                                           schedules. By February 2012, the Bureau had released 14 reports—however,
search and testing progress, so that
                                           according to its revised schedule, 38 reports should have been released by December
budget requests align with decennial
                                           31, 2011. Delays in completing the 109 studies from the 2010 CPEX create a risk that
census requirements.
                                           results may not be available as inputs for the thirty-five 2020 Census research projects
                                           slated to begin during FY 2012.
Why We Did This Review
                                           The 2020 Census Requires a Comprehensive Risk Management Plan. The 2020 Census
As planning for the 2020 Census            Directorate is finalizing a risk management plan to ensure project delivery on time,
proceeds, these changes must con-          within budget, and with the promised functionality. The Bureau is working to integrate
tribute to the design research and         this plan with its enterprise risk management program and the Department of
testing needed to develop a cost-
                                           Commerce’s risk management efforts, including reviews of IT and non-IT major
effective and high quality decennial
                                           programs. This should help the Bureau monitor 2020 Census IT development—and thus
census. This decade, the OIG plans
to monitor the 2020 Census
                                           help the Bureau avoid issues, such as the cost overruns and problems developing
throughout its life cycle to help the      requirements, encountered with the 2010 Census field data collection automation contract.
Bureau achieve its goal of containing      Coordination with the Department on major IT and non-IT systems will be critical in helping
the costs of the next decennial by         to control costs and ensure that systems support mission requirements.
recommending changes to promote a
more cost-effective design.              WHAT WE RECOMMEND
For this review, we sought to            We have recommended to the director of the Census Bureau the following actions
(1) evaluate the Bureau’s efforts to     (which, since December 2011, the Bureau has already begun implementing):
improve the 2020 Census design,
focusing on how the results of the            Prioritize further the 2010 CPEX studies, and focus program resources, to ensure
Bureau’s evaluation plans will inform           that the most critical studies affecting the cost and quality of the 2020 Census are
the new decennial design, and (2)               completed; and
evaluate and monitor the implemen-
tation of the Bureau’s management             Improve the transparency of the 2010 CPEX program by posting study plans,
initiatives designed to enhance organ-          expected publication dates for the 109 studies, and final reports online as soon as
izational change.                               practicable so that stakeholders can review and monitor the Bureau’s progress in
                                                redesigning the 2020 Census.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                  OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 

Findings and Recommendations ....................................................................................................................4
 

   I.  Delays In Completing 2010 Census Studies Could Adversely Impact the Bureau’s 

       Efforts to Improve the Decennial Census Design.............................................................................4
 

   II.  The 2020 Census Requires a Comprehensive Risk Management Plan ........................................7
 

Summary of Agency and OIG Comments................................................................................................ 10

 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 12
 

Appendix B: Census Bureau Actions Taken in Preparation for the 2020 Census.......................... 13

 
Appendix C: Status of 2010 Census Studies ........................................................................................... 17
 

Appendix D: Agency Response .................................................................................................................. 23

 




FINAL REPORT NO. OIG-12-023-1
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL


Introduction 

The Census Bureau (“the Bureau”) is directed by law to carry out the decennial census, which
is mandated by the Constitution. Decennial census data are used to apportion seats in
Congress; redraw congressional districts; and allocate hundreds of billions of dollars in federal
funds for state and local governments, as well as other public and private sector purposes. Since
1970, the design of the decennial census has involved mailing out and delivering questionnaires
to households nationwide and asking households to return completed forms by mail. For those
households that do not receive or return questionnaires, the Bureau sends out temporary
workers to collect the information during field operations.

The 2010 Census encompassed a fiscal year (FY) 2001–2013 life cycle that included planning,
testing, and reporting of results. This effort—managed by the Decennial Management Division
under the Decennial Census Directorate—involved 11 major field operations employing more
than 800,000 temporary employees assigned to nearly 500 field offices. For the 2020 Census,
the Bureau has planned the following life cycle, which follows a similar model divided into
several phases with important deliverables. Figure 1 shows the different phases of the 2020
Census life cycle and some major deliverables.

            Figure 1. 2020 Census Life Cycle and Corresponding Major Deliverables

       FY 2012            FYs 2012–2014                    FYs 2015–2018                   FYs 2019–2023 

                                                  Operational         Supplemental         Readiness Testing, 
                            Research and       Development and        Research and          Execution, and 
   Options Analysis            Testing          Systems Testing          Testing               Closeout 

       Perform            Conduct research        Develop and           Develop and           Test systems 
  operational design       and testing and          baseline              baseline              readiness 
     and program              field tests         operational          supplemental                 — 
     management                    —             requirements       research and testing     Update address 
   options analysis         Develop and                —                    plan                  frame 
          —               baseline systems     Conduct systems               —                      — 
     Develop and             engineering       development and            Conduct                Conduct 
      baseline IT             processes              testing           supplemental           enumeration 
   integration plan                —                   —            research and testing        activities 
          —              Determine strategy         Conduct                  —                      — 
    Develop 2020              for major         operational and         Begin critical     Execute Census Day
   Census business           acquisitions         system tests        planning for the              — 
         plan                      —                   —                2020 Census               Deliver 
          —                Determine and         Establish field                             apportionment 
     Create a new           refine initial       infrastructure                                counts and 
     2020 Census         operational designs                                                redistricting data
      Directorate                                                                                    

  Source: U.S. Census Bureau information

For the 2020 Census, the Bureau has undertaken a reorganization to improve its research and
testing, foster innovation, and develop more cost-effective program processes and methods.


FINAL REPORT NO. OIG-12-023-1                                                                                    1
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

Among the changes are a reorganization of its regional office structure and the creation of the
2020 Census Directorate, the Research and Methodology Directorate, and the Office of Risk
Management and Program Evaluation. Also, the Bureau is working to improve its cost
estimation process for the next decennial census, generating rough order of magnitude (ROM)
estimates for several potential designs. It will update estimates as research and testing progress,
so that budget requests align with decennial census requirements (see section II for the role of
the Bureau’s risk management office and appendix B for a summary of the remaining changes).

As planning for the 2020 Census proceeds, these organizational changes must contribute to the
design research and testing needed to develop a cost-effective and high quality decennial census.
The final cost of the 2010 Census was more than $12 billion—nearly twice the cost of the 2000
Census (nominal dollars)—due in part
to a late-stage design change and              Figure 2. Five Major Research Tracks
higher-than-expected contractor costs.              for the 2020 Census Design
If the Bureau implements the changes
currently under consideration,
preliminary 2020 Census cost
estimates rise to $12.8–18 billion
(nominal dollars). However, if the
design remains unchanged, the 2020
decennial census could reach $30
billion—based on the decennial’s
history of doubling in cost on average
every cycle, according to a recent
GAO estimate.1 The Bureau has
announced its goal of a 2020 Census
costing less per housing unit (adjusted
for inflation) than the 2010 Census,
while maintaining quality.

To produce a more efficient and
effective decennial census—that
contains costs, maintains or improves
information quality,2 and reduces
program risks—the Bureau must              Source: U.S. Census Bureau
make fundamental changes to its
design, which would impact planning, development, and implementation. Planning for the 2020
Census has begun and, over the next several years, staff will examine five different research
tracks to formulate the 2020 Census design (see figure 2). Whatever design the Bureau
chooses, it must allow sufficient time for testing, improvement, and implementation.

                                                            
1
  Government Accountability Office, December 2010. 2010 Census: Data Collection Operations Were Generally
Completed as Planned, but Long-standing Challenges Suggest Need for Fundamental Reforms, GAO-11-193, Washington,
DC: General Accountability Office, 27.
2
  Final results from a post-enumeration survey that provides estimates of persons missed or erroneously counted
are scheduled for release in 2012. These results will gauge the accuracy of the 2010 Census count.  


FINAL REPORT NO. OIG-12-023-1                                                                                  2
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

The period between FYs 2011 and 2014 will prove crucial for 2020 Census success. In previous
decennial census cycles, Congress—and consequently the public—paid minimal attention to the
early stages of planning and design formulation, holding one hearing during the first half of the
decade prior to the 2010 Census. This decade, the OIG plans to monitor the 2020 Census
throughout its life cycle to help the Bureau achieve its goal of containing the costs of the next
decennial by recommending changes to promote a more cost-effective design.

For this review, we sought to (1) evaluate the Bureau’s efforts to improve the 2020 Census
design, focusing on how the results of the Bureau’s evaluation plans will inform the new
decennial design, and (2) evaluate and monitor the implementation of the Bureau’s management
initiatives designed to enhance organizational change. See appendix A for the complete
objectives, scope, and methodology of this evaluation.




FINAL REPORT NO. OIG-12-023-1                                                                   3
  DEPARTMENT OF COMMERCE
U.S.                                                                      OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

The Census Bureau recognizes that it must fundamentally change the decennial census design to
contain costs and improve enumeration quality. Rather than make marginal changes to a design
used for the past 5 decennial census cycles, the Bureau needs to reassess how it updates its
address list, enumerates households, and utilizes field and IT infrastructure to carry out this
critical effort. In FY 2011, the Bureau began planning for the next decennial census. During our
review of these efforts, we recommended management ensure that 2010 Census studies are
completed on schedule and posted online quickly upon completion for stakeholders to review
and monitor. These studies, carried out by the Census Program Evaluation and Experiments
(CPEX) program, provide lessons learned from the previous decennial that inform the next
design. After the 2000 Census, the Bureau, due in part to resource constraints, cancelled more
than a quarter of the program evaluations—and, along with them, potential lessons learned
needed to make changes to the 2010 Census. If the Bureau cannot complete the 2010 Census
studies on time, their results may not provide input for 2020 Census research projects—
jeopardizing the Bureau’s goal of developing a design that contains costs while maintaining data
quality.

I. 	 Delays In Completing 2010 Census Studies Could Adversely Impact the
     Bureau’s Efforts to Improve the Decennial Census Design

Our review of select early 2020 Census planning efforts
found that the assessments and other studies from the        Assessments document final volumes, 
previous census cycle lagged behind schedule. These          rates, and costs for individual operations 
provide data necessary for 2020 Census research              using data from production and quality 
projects that will help formulate the new design.            assurance files—as well as information 
Although major decennial census field operations ended collected from debriefings. 
in 2010, the Bureau continues work to complete the
                                                             Quality Profiles document the results of 
comprehensive 2010 CPEX—the assessments, quality             quality control operations. 
profiles, evaluations, and experiments (see box at right)
scheduled for release into FY 2013. However, tracking        Evaluations analyze the effectiveness of 
information provided by CPEX staff shows some                census components and their impact on 
studies have missed their original report release dates.     data quality and coverage, using data 
This situation materialized after the 2000 Census—           collected from census operations and 
                                                             systems. 
when the Bureau’s former Testing, Experimentation,
and Evaluation Program cancelled 29 percent of its           Experiments are quantitative studies 
evaluations due, in part, to resource constraints. For       (involving national surveys) during a 
example, the Bureau cancelled a 2000 Census                  decennial census that informs future 
evaluation on the use of U.S. Postal Service data to         decennial census planning. 
update its address database, as well as 4 of 7
evaluations measuring how accurately the Bureau enumerated hard-to-count populations living
in group housing such as dormitories and shelters. The inability to complete its 2010 reviews
on time, or at all, could adversely impact the Bureau’s efforts to formulate a new 2020
decennial census design and realize cost savings while maintaining or improving the accuracy of
the census.


FINAL REPORT NO. OIG-12-023-1                                                                              4
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                           OFFICE OF INSPECTOR GENERAL

Since 1950, the Bureau has incorporated a testing, evaluation, and experimental program to
evaluate the current decennial census and facilitate planning for the next one—two activities
that support efforts to improve the decennial census design. Teams of employees across the
Bureau are working to complete 109 studies evaluating decennial census data for insight into
improving its processes. The Bureau plans to issue reports on the 2010 Census studies on a
rolling basis through April 2013.3 Figure 3 shows the number of reports completed or
scheduled for completion (represented by columns, as measured by the left-most y-axis) and
the cumulative totals (represented by lines, as measured by the right-most y-axis) by fiscal year.
However, over the past few months, the release of these studies has been delayed, in some
cases by several months. Of the 30 reports (13 of which the Bureau has designated as critical
for 2020 Census research and testing) planned for release by the end of FY 2011, Census issued
only 2. A third report—the Address Canvassing Operations Assessment, the one critical report
of the three—was in final review at the end of FY 2011, 9 months after the scheduled
December 2010 release date that was published in the official study plan.

      Figure 3. CPEX Study Release Schedule by Quarter, as of September 30, 2011

                               20                                                                                                                                 60




                                                                                                                                                                       Number of CPEX Studies (Cumulative)
      Number of CPEX Studies




                               15                                                                                                                                 45


                               10                                                                                                                                 30


                                5                                                                                                                                 15


                                0                                                                                                                                 0
                                    FY11‐Q1


                                              FY11‐Q2


                                                        FY11‐Q3


                                                                  FY11‐Q4


                                                                             FY12‐Q1


                                                                                       FY12‐Q2


                                                                                                 FY12‐Q3


                                                                                                           FY12‐Q4


                                                                                                                     FY13‐Q1


                                                                                                                                FY13‐Q2


                                                                                                                                              FY13‐Q3


                                                                                                                                                        FY13‐Q4



                                                                                Fiscal Year and Quarter

                                         Non‐Critical             Critical                Cumulative Non‐Critical                         Cumulative Critical

Source: U.S. Census Bureau

Bureau officials stated that delays occurred because the study development process was new,
funding to conduct fieldwork was delayed, and project teams were unable to obtain the
required information according to the project schedule. By reviewing study plans and
interviewing staff, we found that attrition, staff reassignments, and competition for resources
may have also impacted the project schedules. Since Census released the plans, 13 studies have
                                                            
3
 During our review, we were provided revised report release dates. Of the 10 reports scheduled to be released
by the end of FY 2011 per the new schedule, only 3 were completed. We present the entire list of studies as
appendix C. 


FINAL REPORT NO. OIG-12-023-1                                                                                                                                                                                5
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

lost at least one author and 11 others have had authors reassigned to new divisions. For
example, the Address Canvassing Targeting and Cost Reduction Study, whose results are
essential to a 2020 Census design that uses an efficient and effective address canvassing
operation, lost an author to attrition. This left one full-time person to work on this critical
evaluation. The 2010 Census Match Study, which analyzes the use of administrative records to
help enumerate the population, has recently lost key staff. (See box, below, for brief
explanations of these two studies.) Twenty study plans cited risk of delay because staff assigned
to research, develop, and author the reports are also assigned to other critical Census
operations that may take priority over study activities.

                                                      To help the studies catch up to their schedules,
 The Address Canvassing Targeting Study will          Bureau officials have devised a new briefing
 assess the feasibility of a targeted address         strategy to streamline the process. The lower-level
 canvassing operation—which could save                Census Integration Group (CIG), which consists of
 millions of dollars in nationwide field costs that,  the various managers responsible for 2010
 in 2010, totaled $444 million.  
                                                      operations, is no longer briefed on study results.
 The Census Match Study will analyze the use of       Instead, study briefings now occur during the
 administrative records to help enumerate             report drafting stage with the high-level Executive
 households nationwide. This could reduce the         Steering Committee for the 2010 Census
 need for large nonresponse followup operations  Assessments and Research.4 This committee, which
 requiring thousands of temporary workers             was chartered in April 2011, is tasked with (1)
                                                      providing guidance on the results from research on
and assessment of 2010 Census operations and (2) helping direct early 2020 Census life cycle
testing. At the CIG meeting held on February 8, 2012, the Bureau reported 51 studies briefed
and 14 reports released. Since, according to the revised schedule, 38 reports should have been
released by December 31, 2011, stakeholders cannot yet determine whether this new process
will allow the Bureau to meet the release dates for the remaining CPEX studies, particularly if
projects continue to lack the necessary resources. Nonetheless, we recommend posting final
reports online as soon as practicable for stakeholder review. 

Delays in completing 2010 Census studies create a risk that the results and information may
not be available as inputs for the thirty-five 2020 Census research projects slated to begin
during FY 2012. These research projects seek to improve major aspects—such as the address
list, counting the population, response options and processing, data products, and
infrastructure-related issues—as well as inform the redesign of the 2020 Census. Of particular
importance are specific projects aimed at improving map and address accuracy with continual
updating (to allow for a less-costly targeted address canvassing) and using administrative
records (to reduce the size and scope of expensive field operations). With the Bureau
expecting to have major design components in place starting in FY 2015, the timely completion
of research projects becomes critical.

The CPEX program—which cost $68 million for FYs 2009–2011 and, according to the Bureau,
is budgeted for $11 million in FY 2012—faces significant challenges from the reporting delays

                                                            
4
 Members of this Executive Steering Committee include associate and division directors involved in decennial
census planning.


FINAL REPORT NO. OIG-12-023-1                                                                                  6
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

encountered to date.5 With 2020 research projects scheduled to have already started and with
the prospect of constrained future budgets, the Bureau should further prioritize which 2010
CPEX studies to complete. Among the 109 studies, Census management had identified 52 (7 of
which had been released as of February 8) that would provide information critical to planning
and implementing the thirty-five 2020 Census research projects.

Following the FY 2012 appropriations, the Bureau revised its plans for the 2010 CPEX studies.6
The Bureau eliminated 20 CPEX studies, 2 of which it deemed critical to informing the 2020
Census research projects7 and 10 of which were quality profiles designed to assess quality
control processes for certain decennial operations. This reduced the number of critical studies
to 50. Given the federal government’s current constrained fiscal environment, the Bureau could
face funding challenges beyond FY 2012. To prepare for such a possibility, the Bureau should
further prioritize which 2010 CPEX studies are most critical to 2020 Census planning efforts—
and focus on providing program resources (including full-time subject matter experts) to them
to ensure their completion.

II. The 2020 Census Requires a Comprehensive Risk Management Plan

During FY 2011, the Bureau was still developing risk management activities while it prepared to
enter its research and testing phase. During our 2010 Census oversight, we noted that risk
management activities began late in the life cycle. In our final 2010 Census report to Congress,
we recommended that these activities commence from the outset of the life cycle. The 2020
Census Directorate is finalizing a risk management plan to ensure project delivery on time,
within budget, and with the promised functionality. The plan aims to avoid potential problems
during the life cycle by helping staff identify project risks and develop strategies to mitigate
them. Effective risk management will require the involvement of relevant stakeholders and
oversight organizations, including the Bureau’s Office of Risk Management and Program
Evaluation and the Department’s Office of Program Evaluation and Risk Management and
Investment Review Board (IRB).

OIG quarterly reports on the 2010 Census8 identified significant problems in project planning
(e.g., not employing critical path management or thoroughly reviewing project start and end
dates up front) and risk management (e.g., starting such activities late in the decennial census life
cycle and not completing contingency plans on time) that the Bureau needed to resolve to
contain costs and maintain information quality for the 2020 Census. To accomplish this, we
recommended that risk management activities begin from the outset of the current decennial
census life cycle, rather than just before field operations (as happened for the 2010 effort).

                                                            
5
  For FY 2013, the Bureau has stated it requested slightly more than $7 million to fund the 2010 CPEX program. 
6
  The Consolidated and Further Continuing Appropriations Act of 2012 (Public Law 112-55) was signed into law
on November 18, 2011.
7
  The two critical cancelled studies are the (1) Sample Design Assessment and the (2) Respondent Debriefings of
Person Interview and Person Followup Evaluation. These pertain to the Census Coverage Measurement program,
which examines coverage errors from the 2010 Census to improve future censuses. 

8
  OIG-19791-1, August 2009; OIG-19791-2, December 2009; OIG-19791-3, February 2010; OIG-19791-4, May 2010; 

OIG-19791-5, January 2011; and OIG-11-030-I, June 2011.




FINAL REPORT NO. OIG-12-023-1                                                                                 7
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

Similarly, a recently issued National Research Council report9 on redesigning the 2020 Census
encouraged planning for the next decennial to start early in the life cycle to ensure a more
cost-effective design. To accomplish these goals, the Bureau needs to effectively monitor risk
management activities.

The 2020 Census Directorate recently
developed a risk management plan modeled                       Select 2020 Census Program Risks Identified 
after the 2010 effort. The Bureau’s 2020                         During the Research and Testing Phase 
Census risk management plan establishes
processes to identify and analyze risks,                          Alignment of acquisition policy with 2020 Census 
populate a risk register,10 develop mitigation                     needs 
and contingency plans, assess mitigation                          Gaps and weakness in the research and testing 
activities, and periodically reassess the risks as                 plan 
needed. The Bureau’s draft business plan                          Insufficient funding for research and testing 
identifies several risks for the research and                     Lack of Census manager support of the planning 
testing phase of the decennial life cycle (see                     approach 
box, opposite). Census management is                              Lack of external stakeholder support for 2020 
currently developing an enterprise risk                            Census design alternatives 
management program to complement and                              Mandatory cost constraints 
oversee individual plans developed by Bureau                      Premature life cycle cost estimate 
units.                                                            Resistance to improved program management and 
                                                                   accountability  
In addition to planning documents, Census staff                   Shortage of necessary skills—operational and 
is exploring best practices for research and                       technical subject matter, systems engineering, 
testing. For example, it cohosted a June 2011                      program/project management, acquisition 
seminar to learn about successful government                      Unanticipated mandatory change 
system engineering projects from three major                        
consulting firms. Through these concepts and
                                                               Source: OIG, based on U.S. Census Bureau data 
case studies, the Bureau aimed to learn how to
use systems engineering11 for planning and
developing the 2020 Census.

The Bureau is working to integrate its 2020 Census risk management plan with its enterprise
risk management program and the Department of Commerce’s risk management efforts,
including reviews of IT and non-IT major programs. Effective monitoring of decennial risk
management activities will require coordination with several Bureau and Departmental
oversight bodies. During the previous decennial census, the Bureau’s Risk Review Board,
composed of senior Census managers involved with the decennial census, met weekly to
oversee risk management activities during field operations. Census managers informed us they

                                                            
9
  National Research Council. 2011. Change and the 2020 Census: Not Whether But How. Washington, DC: The
National Academies Press.


10
   A risk register contains the results of a project’s risk analysis and includes risk descriptions, probability of 

occurrence, impact on objectives, proposed responses, owners, and current status. 

11
   Systems engineering is an interdisciplinary approach that focuses on defining customer needs and required 

functionality early in the development cycle, documenting requirements, and then proceeding with design synthesis 

and system validation—with the goal of providing a quality product that meets the user needs. 



FINAL REPORT NO. OIG-12-023-1                                                                                        8
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

will again use the Board for the next decennial. Additionally, the Bureau’s newly-created Office
of Risk Management and Program Evaluation (which reports to the deputy director) will
oversee Bureau program risks. Their standardized risk management provides a consistent
methodology to apply to all programs and operating units. One task will be to monitor 2020
Census IT development—which may help the Bureau avoid issues, such as the cost overruns
and problems developing requirements, encountered with the 2010 Census field data collection
automation contract. Independent of the Bureau directorates, the risk management office can
help identify common risks across directorates and facilitate communication among them to
resolve problems quickly.

Finally, Census will need collaboration between the Department’s Office of Program Evaluation
and Risk Management and the IRB. The Department’s risk management office will serve an
important role as the Department’s authority on enterprise and programmatic risk matters—
including implementing enterprise-wide policies and procedures, identifying and applying best
practices, and advising Department and Bureau management on programmatic risks. Based on
our interview with staff, we concluded that the Department’s risk management office had yet to
finalize its oversight role with the 2020 Decennial Census program. The IRB’s role in advising
the Secretary and Deputy Secretary on major IT and non-IT systems will be critical in helping to
control costs and ensure that systems support mission requirements. Any significant delay in
the development of these relationships presents a risk to the Bureau in its efforts to plan for
the 2020 Census.

Recommendations12
We recommend the director of the Census Bureau take the following actions:

       		 Prioritize further the 2010 CPEX studies, and focus program resources, to ensure that
           the most critical studies affecting the cost and quality of the 2020 Census are
           completed; and

       		 Improve the transparency of the 2010 CPEX program by posting study plans, expected
           publication dates for the 109 studies, and final reports online as soon as practicable so
           that stakeholders can review and monitor the Bureau’s progress in redesigning the 2020
           Census.




                                                            
12
   We do not offer any new recommendations to address finding II, which concerns a comprehensive risk
management plan. Currently, the Bureau is addressing an OIG recommendation—from our final quarterly report
to Congress—to “[i]mplement improved project planning and management techniques early in the decade.”
Among management priorities are plans to address risk management activities for the 2020 Census (see table B-1
in appendix B of this report).


FINAL REPORT NO. OIG-12-023-1                                                                                    9
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments 

In its March 21, 2012, response to our draft report, the Bureau reported it had already taken
steps to address our recommendations. The Bureau has made progress implementing our
recommendations following our December 20, 2011, exit conference. Regarding the first
recommendation, the Bureau has completed a series of internal reviews to ensure the most
critical studies are completed. In addition, the Bureau stated that it monitors the progress of
reports through exchanges with authors, managers, and stakeholders—as well as through the
use of tracking tools to ensure allocating appropriate resources for their completion. In
response to our second recommendation, the Bureau has created a website to disseminate the
CPEX reports to the public. The Bureau’s response further stated it had posted online 21
reports.

In addition to responding to our recommendations, the Bureau provided technical comments
to our draft report. After consideration of the comments, we modified our final report to
reflect appropriate changes. The Bureau also suggested modifying our report to reflect the
updated number of studies in its current schedule. However, we retained the numbers in our
draft report that were listed in the original CPEX studies schedule—which the Bureau provided
to us in October 2011—while later changes provided by the Bureau reflect their subsequent
prioritization. (For further details about the Bureau’s changes, find the Bureau’s response in
appendix D.) We outline below specific changes involving the number of studies and those
designated critical:

       		 We reported 109 studies in our draft report based on a list of studies the Bureau
           provided to us in October 2011 and a list of 20 canceled studies contained in an internal
           memorandum dated February 2012.13 After examining its response (and through a
           follow-up interview with staff), we determined that—since October 2011—the Bureau
           split 1study into 12 individual studies, effectively adding 11 new studies. Adding those 11
           studies to the remaining 89 studies results in 100 current studies, as reported by the
           Bureau.

       		 On page 7, we reported that 52 CPEX studies designated as critical were reduced to 50
           when 2 studies were canceled. However, the Bureau’s response to our draft report
           states that 53 critical studies now exist. In addition to the 2 canceled studies, the
           Bureau redesignated 2 critical studies as noncritical14 and named 5 others critical.

 




                                                            
13
  See 2010 Decennial Census Program Decision Memorandum Series No. 38—Decision to Reduce Scope of the 2010
Census Program for Evaluations and Experiments (February 14, 2012).
14The studies no longer considered critical are (1) Missing Housing Unit Assessment (renamed “Evaluation to
Assess Effect of Census Coverage Measurement [CCM] Search Area and Census Address List Formation Rules on
CCM Estimates”) and (2) Behavior Coding of the 2010 Nonresponse Followup Interviews Evaluation. 


FINAL REPORT NO. OIG-12-023-1                                                                                10
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

    		 On page 7, we stated that the Bureau released 7 critical reports as of February 8, 2012.
        In the Bureau’s response they report the release of 9. This discrepancy results from the
        definition of the release date. We define “release date” as the date of the signed
        memorandum that formally releases the report for distribution. As such, the Bureau had
        released only 7 critical reports by the aforementioned date.




FINAL REPORT NO. OIG-12-023-1                                                                 11
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
To conduct this review, we sought to (1) evaluate the Census Bureau’s efforts to improve the
2020 Census design, focusing on how the results of the Bureau’s evaluation plans will inform
the new decennial design; and, (2) evaluate and monitor the implementation of the Bureau’s
management initiatives designed to enhance organizational change.

Our methodology included interviewing senior Bureau managers and staff and reviewing
planning documentation for the 2020 Census. Specifically, we:

    		 Interviewed Bureau staff to (1) understand their roles in support of the 2020 Census
        and (2) monitor development of the decennial census design;
    		 Interviewed Bureau regional directors to obtain (1) their feedback on the 2010 Census
        and (2) their suggestions for improving the 2020 Census;
    		 Interviewed outside stakeholders to understand their concerns and receive suggestions
        for improving the 2020 Census design;
    		 Reviewed the Bureau’s draft 2020 Census business plan and rough order of magnitude
        for long-term cost estimates;
    		 Assessed the study plans for 2010 Census assessments, evaluations, experiments, and
        quality profiles and research plans for the 2020 Census; and,
    		 Evaluated Bureau organizational changes and new management initiatives put in place in
        preparation for the 2020 Census.

We conducted this review from February through October 2011, under the authorities of the
Inspector General Act of 1978, as amended, and Departmental Organization Order 10-13,
dated August 31, 2006, as amended. The review was conducted in accordance with the Quality
Standards for Inspection and Evaluation (January 2011) issued by the Council of the Inspectors
General on Integrity and Efficiency.




FINAL REPORT NO. OIG-12-023-1                                                                    12
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL


Appendix B: Census Bureau Actions Taken
in Preparation for the 2020 Census
To effect changes in support of a more cost-effective decennial census in 2020 that improves
information quality, the Census Bureau has begun implementing several important
organizational and process changes. In addition, it has taken initial steps to address major
challenges to the 2020 Census that we presented in our culminating sixth and final quarterly
report to Congress.15 Below is a summary of the organizational and process changes and the
Bureau’s actions to address the 2020 Census challenges from that report.

Reorganization of the Regional Office Structure. In June 2011, the Bureau announced a
significant change to its regional office structure, the first such change since 1961. Expected to
be completed by January 1, 2013, the number of offices that manage nationwide surveys using
thousands of permanent workers (field representatives) will decrease from 12 to 6 (see figure
B-1).

                                   Figure B-1. Census Regions, Effective January 1, 2013




Source: U.S. Census Bureau 

This reorganization aims to lower costs, improve efficiency, and increase responsiveness. The
Bureau utilized objective criteria to select which offices to close and expects to save $15–18

                                                            
15
 U.S. Department of Commerce Office of Inspector General, June 2011. Census 2010: Final Report to Congress,
OIG-11-030-I. Washington, DC: Department of Commerce OIG.


FINAL REPORT NO. OIG-12-023-1                                                                                 13
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

million annually, starting in FY 2014, with few staff reductions. The Bureau will continue the
current practice of providing administrative functions (e.g., payroll, human resources) at each
office. The Bureau intends to increase regional office participation and leverage field office
infrastructure to support planning efforts for the 2020 Census. With the new 2020 Census
design still under development, it is unknown how these changes in the field will impact the
Bureau’s goal of containing the cost of the decennial census while preserving data quality.

2020 Census Directorate. In late 2010, Bureau management proposed a plan to separate the
tasks of handling remaining 2010 Census operations and planning for the 2020 Census. The
2020 Census Directorate fulfills the Bureau’s goal of redesigning the decennial census by
allowing it to focus on planning for the 2020 Census without responsibility for finalizing the
2010 Census. This directorate is composed of the associate director, the Office of 2020 Census
Planning, and the American Community Survey (ACS) office. The current associate director is
the former head of the decennial management division who oversaw the 2010 Census as field
operations were carried out. The 2020 Census planning office is tasked with planning and
implementing program management processes for research and testing and with evaluating
proposed designs. The ACS office will continue to carry out its mandatory, continuous survey
(which, after 2000, replaced the decennial census long form containing additional population
and housing questions) but also be available to support research and planning for the next
decennial census. Specifically, the Bureau plans to develop IT, field, and operational
infrastructure that can support the ACS and adapt to the much larger 2020 Census. The ACS
will serve as a test bed for carrying out tests, such as new survey methods, for the proposed
decennial census design using existing permanent staff located throughout the country. ACS
field representatives will test out new hardware platforms and software functionalities as they
conduct their regular monthly surveys.

Research and Methodology Directorate. The new Research and Methodology Directorate
is expected to support mission-critical research for the 2020 Census and collaborate with
program divisions throughout the life cycle. The new directorate strengthens the former
Methodology and Standards Directorate by tasking it with functions critical to redesigning the
2020 Census. This directorate will support teams working on 2020 research projects as
needed. Headed by the associate director, this unit is divided into 5 centers:

       Statistical Research and Methodology
       Economic Studies
       Administrative Records Research and Applications
       Disclosure Avoidance and Research
       Survey Measurement

The Research and Methodology Directorate is expected to work closely with the 2020 Census
Directorate in areas such as administrative records and survey measurement.

New Effort at 2020 Census Cost Estimation. The Bureau is working to improve its cost
estimate for the proposed decennial census design. Since 1970, the cost of the decennial census
has increased significantly with each successive cycle, despite the Bureau utilizing virtually the


FINAL REPORT NO. OIG-12-023-1                                                                     14
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

same design to collect information. For 2010, the cost was more than $12 billion,16 which was
more than the original life cycle estimate of $11.7 billion made in 2001 but less than the $14.7
billion estimate made in 2008 following the announcement of a return to a paper-based
Nonresponse Followup operation. With the final 2020 Census design unknown, the Bureau has
generated rough order of magnitude (ROM) cost estimates for four preliminary design options
spanning the entire life cycle (FYs 2012–2023) based on inputs from the 2010 Census (such as
enumerator training and salaries, operation workloads, and office space costs). The most
expensive option, which makes few changes to the 2010 Census design, could cost up to $18
billion—while the least expensive option, which utilizes targeted address canvassing, greater use
of administrative records to help enumerate the population, and fewer field offices than in 2010,
carries a $12.8 billion estimate. The costs of the remaining two designs fall in between these
figures.17 The preliminary costs of these designs are in contrast to GAO’s independent estimate
of up to $30 billion based on doubling the cost on average of the previous decennial census
design.

Bureau staff generated many thousands of simulations for each design option to increase the
accuracy of its cost estimates. The Bureau plans on updating these estimates on an annual basis
to take into account changes made during the research and testing phase and avoid having one
static estimate, as developed for the 2010 Census, that certainly will change over time. Per its
decennial business plan, the Bureau will have an initial operational design by FY 2015 based on
initial research and testing of the five research tracks through FY 2014. From then on, the
budget for 2020 Census should provide more accurate numbers for the finalized design and
associated costs, particularly for administrative records and targeted address canvassing.

Status of Challenges to the 2020 Census. For our June 2011 final quarterly report to
Congress on the status of 2010 Census operations, we enumerated 7 major challenges to the
2020 Census that the Bureau must address to ensure a cost-effective and quality decennial
census. During this review, we found that the Bureau has taken initial steps to address some of
these challenges with specific actions as it continues planning for the next decennial census
(summarized in table B-1, next page):




                                                            
16
   According to the Bureau, this represented a savings of $1.9 billion due to efficiencies gained during field
operations and not spending approximately $800 million in contingency funds for emergencies that did not
materialize.
17
   There were two other potential designs for which they did not generate ROM estimates, because the designs
rely heavily or nearly exclusively on the use of administrative records and include no address canvassing. Testing
involving these two areas remains ongoing and the extent of their potential use is unknown.


FINAL REPORT NO. OIG-12-023-1                                                                                        15
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

    Table B-1. Summary of Bureau Actions to Address OIG’s 2020 Census Challenges

Challenges to the 2020 Censusa                          Actions Taken by the Census Bureau in FY 2011

                                                        The Bureau has generated ROM estimates for budget years
                                                        FY 2012–2014 that encompass the research and testing
Revamp cost estimation and budget processes to          phase. Census Bureau staff stated that they will update
increase accuracy, flexibility, and transparency        budget estimates annually to inform the annual budget
                                                        process.

                                                        Bureau staff plan to incorporate these two activities as part
                                                        of its research and testing projects to redesign the 2020
Use the Internet and administrative records to          Census. The Bureau expects to implement its final
contain costs and improve accuracy                      decennial census design in FY 2015 that may utilize the
                                                        Internet and administrative records.

                                                        Bureau managers plan on utilizing resources from the ACS
                                                        to test new enumeration methods, hardware and software
Implement a more effective decennial test program
                                                        products, and conduct smaller field tests in support of the
using the ACS as a test environment
                                                        2020 Census redesign effort. Specific plans have not yet
                                                        been finalized.

                                                        As part of its 2020 research and testing program, the
                                                        Bureau plans on researching how to increase the efficiency
Effectively automate field data collection              of its field infrastructure, exploring ways to automate the
                                                        collection and processing of information during field
                                                        operations.

                                                        As part of its planning process, the Bureau has proposed
                                                        several decennial census designs, some of which include a
Avoid a massive end-of-decade field operation           targeted address canvassing operation to supplement
through continuous updating of address lists and        continuous map and address updating. The decision on the
maps                                                    extent to which targeted address canvassing will be used as
                                                        part of the final decennial census design will be made after
                                                        initial research and testing concludes in FY 2014.

                                                        The Bureau formulated a draft business plan to support its
                                                        FY 2012 budget initiative that provides a road map on FYs
Implement improved project planning and
                                                        2012–2014 planning activities. Management has begun to
management techniques early in the decade
                                                        formulate plans to address project and risk management
                                                        activities for the 2020 Census.

Source: OIG analysis of U.S. Census Bureau data
a
 The challenge to create a director position that spans Presidential administrations requires Congressional action
and cannot be addressed solely by the Census Bureau.




FINAL REPORT NO. OIG-12-023-1                                                                                        16
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


 Appendix C: Status of 2010 Census Studies 

                                                                               Status, 
                                                                                                        Current 
                                                               Original        End of       Revised 
STUDY TITLE                                                                                          Status, Based 
                                                               Release     FY 2011 Based    Release 
(critical studies highlighted in yellow)                                                              on Revised 
                                                                Date         on Original     Date 
                                                                                                     Release Date 
                                                                            Release Date 
Census Coverage Measurement 
                                                                                                 
                                                                FY 11                        FY 11 
CCM Independent Listing Quality Profile                                                                FY 11 (3Q) 
                                                                (4Q)                         (3Q) 
                                                                FY 11                        FY 11 
Demographic Analysis Operation Assessment                                    OVERDUE                   FY 12 (1Q) 
                                                                (4Q)                         (4Q) 
                                                                FY 12                        FY 12 
CCM Sample Design Assessment                                                                           CANCELLED 
                                                                (1Q)                         (2Q) 
                                                                FY 12                        FY 12 
CCM Person Interview Quality Profile                                                                   CANCELLED 
                                                                (3Q)                         (3Q) 
                                                                FY 12                        FY 11 
CCM Initial Housing Unit Operations Assessment                                                         OVERDUE 
                                                                (4Q)                         (4Q) 
                                                                FY 12                        FY 12 
CCM Person Interview Operations Assessment 
                                                                (4Q)                         (2Q)            
                                                                FY 12                        FY 12 
CCM Final Housing Unit Operations Assessment 
                                                                (4Q)                         (4Q)            
CCM Person Matching and Followup Operations                     FY 12                        FY 12 
Assessment                                                      (4Q)                         (4Q)            
                                                                FY 12                        FY 12 
Recall Bias Panel Plan Evaluation 
                                                                (4Q)                         (4Q)            
CCM Respondent Debriefings of Person Interview and              FY 13                        FY 12 
                                                                                                       CANCELLED 
Person Followup Evaluation                                      (1Q)                         (1Q) 
                                                                FY 13                        FY 12 
CCM Initial Housing Unit Clerical Matching Quality Profile                                             CANCELLED 
                                                                (2Q)                         (3Q) 
                                                                FY 13                        FY 12 
CCM Person Followup Quality Profile                                                                    CANCELLED 
                                                                (1Q)                         (3Q) 
                                                                FY 13                        FY 12 
CCM Person Clerical Matching  Quality Profile                                                          CANCELLED 
                                                                (1Q)                         (4Q) 
Investigation of Methods to Evaluate Coverage of the            FY  13                       FY  13 
Group Quarters Population Evaluation                            (1Q)                         (1Q)            
Developing  an Error  Structure  in  Components  of  Census     FY  13                       FY  13 
                                                                                                       CANCELLED 
Coverage Error  Evaluation                                      (1Q)                          (1Q) 
                                                                FY  13                       FY  11 
CCM  Initial  Housing  Unit Followup  Quality Profile                                                  OVERDUE 
                                                                (2Q)                          (4Q) 
Explaining  How  Census Errors  Occur  through  Comparing 
                                                                FY  13                       FY  12 
Census Operations  History  with  Census  Coverage                                                     CANCELLED 
                                                                (2Q)                         (2Q) 
Measurement Results Evaluation 
                                                                FY  13                       FY  12 
CCM  Final  Housing  Unit  Followup  Quality  Profile                                                  CANCELLED 
                                                                (3Q)                         (4Q) 
                                             




 FINAL REPORT NO. OIG-12-023-1                                                                                  17
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL

                                                                         Status,
                                                                                                  Current 
                                                         Original        End of       Revised 
STUDY TITLE                                                                                    Status, Based 
                                                         Release     FY 2011 Based    Release 
(critical studies highlighted in yellow)                                                        on Revised 
                                                          Date         on Original     Date 
                                                                                               Release Date 
                                                                      Release Date 
Coverage Improvement 
                                                                                           
                                                          FY 11                        FY 13 
Non‐ID Processing Assessment                                           OVERDUE 
                                                          (3Q)                         (1Q)            
                                                          FY 11                        FY 12 
Count Review Assessment                                                OVERDUE 
                                                          (4Q)                         (2Q)            
                                                          FY 12                        FY 12 
Small Multiunit Structures Evaluation 
                                                          (1Q)                         (2Q)            
Alternative Coverage Followup Questions and Design        FY 12                        FY 12 
Evaluation                                                (1Q)                         (3Q)            
                                                          FY 12                        FY 12 
LUCA Participant Survey Evaluation 
                                                          (1Q)                         (2Q)            
Address Canvassing Targeting and Cost Reduction           FY 12                        FY 12 
Evaluation                                                (2Q)                         (2Q)            
Data‐based Extraction Processes for the Address Frame     FY 12                        FY 12 
Evaluation                                                (2Q)                         (2Q)            
                                                          FY 12                        FY 12 
Effectiveness of Unduplication Evaluation 
                                                          (4Q)                         (4Q)            
                                                          FY 12                        FY 13 
Avoid Followup Evaluation 
                                                          (4Q)                         (1Q)            
Administrative Records Use for Coverage Problems          FY 12                        FY 13 
Evaluation                                                (4Q)                         (1Q)            
                                                          FY 13                        FY 13 
Address Frame Accuracy and Quality Evaluation 
                                                          (1Q)                         (1Q)            
Address List Maintenance Using Supplemental Data          FY 13                        FY 12 
Sources Evaluation                                        (1Q)                         (3Q)            
Comparative Ethnographic Studies of Enumeration           FY 13                        FY 13 
Methods and Coverage Evaluation                           (1Q)                         (1Q)            
                                                          FY 13                        FY 12 
Census Match Study Evaluation 
                                                          (1Q)                         (2Q)            
                                                         Unavail‐                      FY 13 
Matching Error Study Evaluation                                                                 CANCELLED 
                                                           able                        (1Q) 
                                                         Unavail‐                      FY 13 
Missing Housing Unit Assessment 
                                                           able                        (1Q)            
Field Operations  
                                                                                           
                                                          FY 11                        FY 12 
Address Canvassing Operations Assessment                               OVERDUE 
                                                          (1Q)                         (1Q)            
                                                          FY 11                        FY 12 
Global Positioning System Evaluation                                   OVERDUE 
                                                          (2Q)                         (4Q)          
                                                          FY 11                        FY 11    CANCELLED
Group Quarters Validation Quality Profile                              OVERDUE 
                                                          (3Q)                         (1Q)      OVERDUE 
                                                          FY 11                        FY 11 
Address Canvassing Quality Profile                                     OVERDUE                   OVERDUE 
                                                          (3Q)                         (4Q) 
                                                          FY 11                        FY 12 
Group Quarters Validation Assessment                                   OVERDUE 
                                                          (3Q)                         (1Q)            




 FINAL REPORT NO. OIG-12-023-1                                                                            18
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

                                                                              Status,
                                                                                                       Current 
                                                              Original        End of       Revised 
STUDY TITLE                                                                                         Status, Based 
                                                              Release     FY 2011 Based    Release 
(critical studies highlighted in yellow)                                                             on Revised 
                                                               Date         on Original     Date 
                                                                                                    Release Date 
                                                                           Release Date 
                                                               FY 11                        FY 12 
Enumeration at Transitory Locations Assessment                              OVERDUE 
                                                               (3Q)                         (3Q)            
                                                               FY 11                        FY 12 
Nonresponse Followup Operations Assessment                                  OVERDUE 
                                                               (3Q)                         (1Q)            
                                                               FY 11                        FY 12 
Field Verification Assessment                                               OVERDUE 
                                                               (4Q)                         (1Q)            
                                                               FY 11                        FY 12 
Group Quarters Enumeration Assessment                                       OVERDUE 
                                                               (4Q)                         (3Q)            
                                                               FY 11                        FY 12 
Shipboard Enumeration Operation Assessment                                  OVERDUE 
                                                               (4Q)                         (3Q)            
                                                               FY 11                        FY 12 
Island Areas Assessment                                                     OVERDUE 
                                                               (4Q)                         (1Q)            
                                                               FY 11                        FY 12 
Telephone Questionnaire Assistance Assessment                               OVERDUE 
                                                               (4Q)                         (1Q)            
                                                               FY 12                        FY 12 
Update/Leave Assessment 
                                                               (1Q)                         (3Q)            
                                                               FY 12                        FY 12 
Coverage Followup Assessment 
                                                               (1Q)                         (2Q)            
                                                               FY 12                        FY 12 
Be Counted/Questionnaire Assistance Center Assessment 
                                                               (1Q)                         (1Q)            
                                                               FY 12                        FY 12 
Federally Affiliated Overseas Count Operation Assessment 
                                                               (1Q)                         (2Q)            
Observing Census Enumeration of Non‐English‐Speaking           FY 12                        FY 12 
Households Evaluation                                          (1Q)                         (3Q)            
                                                               FY 12                        FY 12 
Nonresponse Followup Contact Strategy Experiment 
                                                               (2Q)                         (1Q)            
                                                               FY 12                        FY 12 
Group Quarters Enumeration Quality Profile                                                           CANCELLED 
                                                               (2Q)                         (2Q) 
                                                               FY 12                        FY 12 
Update Enumerate Operations Assessment 
                                                               (2Q)                         (3Q)            
                                                               FY 12                        FY 12 
Nonresponse Followup Quality Profile 
                                                               (3Q)                         (1Q)            
                                                               FY 12                        FY 12 
Enumeration of Transitory Locations Quality Profile 
                                                               (3Q)                         (2Q)            
                                                               FY 12                        FY 12 
Update Enumerate Quality Profile 
                                                               (3Q)                         (2Q)            
                                                               FY 12                        FY 12 
Update/Leave Quality Profile 
                                                               (3Q)                         (2Q)            
                                                               FY 12                        FY 12 
Field Verification Quality Profile                                                                   CANCELLED 
                                                               (3Q)                         (3Q) 
Automation in Field Data Collection for Address Canvassing     FY 12                        FY 12 
Evaluation                                                     (3Q)                         (2Q)            
                                                               FY 12                        FY 12 
Island Areas Quality Profile                                                                         CANCELLED 
                                                               (4Q)                         (3Q) 
                                                               FY 13                        FY 13 
Military Enumeration Assessment                                                                      CANCELLED 
                                                               (1Q)                         (1Q) 



 FINAL REPORT NO. OIG-12-023-1                                                                                 19
  DEPARTMENT OF COMMERCE
U.S.                                                                       OFFICE OF INSPECTOR GENERAL

                                                                        Status,
                                                                                                 Current 
                                                        Original        End of       Revised 
STUDY TITLE                                                                                   Status, Based 
                                                        Release     FY 2011 Based    Release 
(critical studies highlighted in yellow)                                                       on Revised 
                                                         Date         on Original     Date 
                                                                                              Release Date 
                                                                     Release Date 
                                                         FY 13                        FY 13 
Service‐Based Enumeration Assessment 
                                                         (1Q)                         (1Q)            
                                                         FY 12                        FY 13 
Puerto Rico Assessment 
                                                         (4Q)                         (1Q)            
Field and Headquarters Infrastructure 
                                                                                          
                                                         FY 11                        FY 12 
Recruiting and Hiring Field Staff Assessment                          OVERDUE                   FY 12 (1Q) 
                                                         (2Q)                         (1Q) 
                                                         FY 11                        FY 12 
Cost and Progress Assessment                                          OVERDUE 
                                                         (2Q)                         (1Q)            
                                                         FY 11                        FY 11 
Logistics Assessment                                                  OVERDUE                   OVERDUE 
                                                         (3Q)                         (4Q) 
                                                         FY 11                        FY 12 
Forms Printing and Distribution Assessment                            OVERDUE 
                                                         (3Q)                         (1Q)            
ELCO/LCO IT Equipment Deployment and De‐installation     FY 11                        FY 12 
                                                                      OVERDUE 
Assessment                                               (4Q)                         (1Q)            
                                                         FY 11                        FY 12 
Mail Response/Return Rates Assessment                                 OVERDUE 
                                                         (4Q)                         (1Q)            
                                                         FY 11                        FY 12 
DRIS Paper Questionnaire Data Capture Assessment                      OVERDUE 
                                                         (4Q)                         (1Q)            
                                                         FY 11                        FY 12 
RCC/LCO Space Acquisition Assessment                                  OVERDUE 
                                                         (4Q)                         (1Q)            
                                                         FY 11                        FY 12 
Web Discovery Evaluation                                              OVERDUE 
                                                         (4Q)                         (3Q)            
Universe Control and Management and Response             FY 12                        FY 13 
Processing System Assessment                             (1Q)                         (1Q)            
                                                         FY 12                        FY 12 
Program Management Process: Risk Assessment 
                                                         (1Q)                         (4Q)            
                                                         FY 12                        FY 12 
Program Management Process: Schedule Assessment                                                CANCELLED 
                                                         (1Q)                         (4Q) 
Program Management Process: Change Control               FY 12                        FY 12 
                                                                                               CANCELLED 
Assessment                                               (1Q)                         (1Q) 
                                                         FY 12                        FY 12 
Program Management Process: Issues Assessment 
                                                         (1Q)                         (2Q)            
                                                         FY 12                        FY 12 
Field Office Administration and Payroll Assessment 
                                                         (2Q)                         (1Q)            
Decennial Applicant, Personnel, and Payroll System       FY 12                        FY 12 
Assessment                                               (2Q)                         (2Q)            
                                                         FY 12                        FY 12 
2010 Census Postal Tracking Assessment 
                                                         (2Q)                         (1Q)            
                                                         FY 12                        FY 12 
Census Unedited File Assessment                                                                CANCELLED 
                                                         (3Q)                         (3Q) 
                                                         FY 13                        FY 12 
Late Adds Mailout Assessment 
                                                         (1Q)                         (2Q)            
                                                         FY 12                        FY 12 
Personally Identifiable Information Assessment  
                                                         (1Q)                         (2Q)            



 FINAL REPORT NO. OIG-12-023-1                                                                           20
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

                                                                            Status,
                                                                                                     Current 
                                                            Original        End of       Revised 
STUDY TITLE                                                                                       Status, Based 
                                                            Release     FY 2011 Based    Release 
(critical studies highlighted in yellow)                                                           on Revised 
                                                             Date         on Original     Date 
                                                                                                  Release Date 
                                                                         Release Date 
Questionnaire Content 
                                                                                              
Behavior Coding of the 2010 Nonresponse Followup             FY 11                        FY 11 
                                                                          OVERDUE                   FY 11 (4Q) 
Interviews Evaluation                                        (3Q)                         (4Q) 
                                                             FY 11                        FY 12 
Item Nonresponse and Imputation Assessment                                OVERDUE 
                                                             (4Q)                         (1Q)            
                                                             FY 11                        FY 12 
Bilingual Questionnaire Assessment                                        OVERDUE                   FY 11 (4Q) 
                                                             (4Q)                         (1Q) 
                                                             FY 12                        FY 11 
Confidentiality Notification Experiment                                                             OVERDUE 
                                                             (1Q)                         (3Q) 
                                                             FY 12                        FY 12 
Content and Forms Design Program Assessment 
                                                             (1Q)                         (1Q)            
                                                             FY 12                        FY 12 
Language Program Assessment 
                                                             (1Q)                         (1Q)            
                                                             FY 12                        FY 12 
Census Quality Survey Evaluation 
                                                             (1Q)                         (2Q)            
                                                             FY 12                        FY 12 
AQE—Census 2000 Form Replication Experiment 
                                                             (2Q)                         (2Q)            
                                                             FY 12                        FY 12 
Content Reinterview Evaluation 
                                                             (2Q)                         (1Q)            
Behavior Coding of the 2010 Coverage Followup Interviews     FY 12                        FY 12 
Evaluation                                                   (2Q)                         (2Q)            
AQE—Race and Hispanic Origin Alternative Questionnaire       FY 12                        FY 12 
Experiment                                                   (3Q)                         (4Q)            
2010 Census and American Community Survey                    FY 12                        FY 13 
                                                                                                   CANCELLED 
Comparability Evaluation                                     (3Q)                         (1Q) 
DRIS Data Capture QA and Paper Data Quality ‐ Quality        FY 13                        FY 12 
                                                                                                   CANCELLED 
Profile                                                      (1Q)                         (4Q) 
Behavior Coding of the 2010 Census Coverage                  FY 13                        FY 13 
Measurement Person Interview Evaluation                      (1Q)                         (1Q)            
Communications 
                                                                                              
                                                             FY 11                        FY 13 
National Partnerships Evaluation                                          OVERDUE 
                                                             (4Q)                         (1Q)            
                                                             FY 11                        FY 11 
Census In Schools Research Evaluation                                     OVERDUE                   OVERDUE 
                                                             (4Q)                         (3Q) 
Deadline Messaging and Compressed Mailing Schedule           FY 12                        FY 12 
Experiment                                                   (1Q)                         (1Q)            
                                                             FY 12                        FY 12 
Paid Advertising Heavy‐Up Experiment 
                                                             (1Q)                         (4Q)            
                                                             FY 12                        FY 13 
Integrated Communications Program Assessment 
                                                             (1Q)                         (1Q)            
Census Barriers, Attitudes, and Motivators Survey II         FY 12                        FY 12 
Evaluation                                                   (1Q)                         (2Q)            
                                                            Unavail‐                      FY 12 
Integrated Communications Program Evaluation 
                                                              able                        (1Q)            
Geographic Programs 
                                                                                             


 FINAL REPORT NO. OIG-12-023-1                                                                               21
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

                                                                          Status,
                                                                                                   Current 
                                                          Original        End of       Revised 
STUDY TITLE                                                                                     Status, Based 
                                                          Release     FY 2011 Based    Release 
(critical studies highlighted in yellow)                                                         on Revised 
                                                           Date         on Original     Date 
                                                                                                Release Date 
                                                                       Release Date 
                                                           FY 11                        FY 12 
Type of Enumeration Area Delineation Assessment                         OVERDUE 
                                                           (1Q)                         (1Q)            
Service‐Based Enumeration, Group Homes, and Carnival       FY 12                        FY 12 
Locations Address List Update Assessment                   (2Q)                         (3Q)            
                                                           FY 12                        FY 12 
Local Update of Censuses Addresses Assessment 
                                                           (3Q)                         (3Q)            
                                                           FY 12                        FY 12 
New Construction Assessment 
                                                           (3Q)                         (4Q)            
  

                                                          Original                     Revised 
Reports Overdue Based on:                                                  30                         7 
                                                           Date                         Date 

 Source: OIG analysis of U.S. Census Bureau information

  




 FINAL REPORT NO. OIG-12-023-1                                                                             22
U.S. DEPARTMENT OF COMMERCE                                                               OFFICE OF INSPECTOR GENERAL



Appendix D: Agency Response 

                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Economics and Statistic• Admlnl•tra1lon
                                                          U .S. Census Bureau
                                                          Wasllll'~lon.   OC 20233·0001
                                                          OFFICE or THE DIRECTOR


                                                                                               ~:M'   Z 1 ?017


           MEMORANDUM FOR             /\on Eilers
                                      Principal Assistant lmpector General for Audil and   ~valuation

                                                      ~
           Through:                   Rebecca M. Blank ~
                                      Under Secretary for Econo1nic AlTa irs

           From:                      Robert M. Groves f) I rl-               W1 /..
                                      Director       /~ fl {                         ~
           Subject:                   Draft Report: 2020 Census Plnuning: Delays wirh 2010 Census
                                      Research Studias May Adversely lmpact the 2(120 Decennial
                                      Census


           The attached comments are in response to your draft audit report, 2020 Census !'/arming;
           Delays with 2010 Census Research Studies May Adversely Impact the 2020 Decennial Census.
           The U.S. Censu.~ Bureau appreciates the comments and recommendations developed by the
           Office of the Principal Assistant inspector General in producing this audit report.

           Attachment

           cc: US/EA




          USCENSUSBUREAU
                                                                                            www.census.gQv




FINAL REPORT NO. OIG-12-023-1                                                                                     23
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL




                                      OIG Draft Report
                2020 Census Planning: Delays with 2010 Census Resea rch Studies
                       May Adversely lmpacl the 2020 Decennial Census

                                  U.S. Census Bureau Response

 The Census Bureau has reviewed the Department of Commerce, Office of Inspector General ,
 (OIG) Draft Report dated March 5, 2012, and has the following comments:


 Snccific Comments

 Page 4, first paragn ph: The sentence reads ... "After the 2000 Census. the Bureau canedled
 more than a quarter of the program eva/uations ... to tn(tke changes to the 2010 Census. "

 Census Bu reau response: We agree with this statement. We, in fact, canceled some
 evaluations after the 2000 Census due in part to resource constraints. To make the connection
 with this paragraph to the subsequent paragraph on this page, we suggest you modily this
 statement to read . .. "After the 2000 Census, the Bureau, due in part to resource constraints,
 cancelled more than a quarter ofthe program evaluations .... "


 l>age 6, parngrapb 3: "Delays in completing 2010 Census studies ... the timely completion of
 research proj ects becomes critical. "

 Census Bureau response: As we move forward with 20 l 0 CPEX, we are scheduled to brief the
 findings o r all I00 studies to the Executive Steering Commi llee (ESC) by the end of fiscal year
 201 2. The ESC, which is comprised mostly of Associate Directors and Division Chiefs, was
 established to "provide guidance on me results from research and the assessments of the 20 l 0
 Census operations." We are working under the assumption that review and approval of tinaI
 reports (a tier the presentation or findings to the ESC) wou ld on average require approximately
 four months a fter the presentation. We esti mate that we will still be able to release all final
 reports by i\pril201 3. ln the meantime, we have made all preliminary findings available
 internally to staff worki''l! on early 2020 Census efforts. A s well, the staff wo1·king on early
 2020 Census research and testing have, in many cases, worked also on the 20 I 0 Census
 operations, and !herefore already have knowledge of operational outcomes that they rely on
 when assisting in deve loping research plans. We wiU also continue to make preliminary findings
 available - as we did with tl1e assessment of the Address Canvassi ng Operations - to the OIG
 and GAO as requested to support specific aud its.


 1'11ges 6-7, last parag•·aph: "The CPEX program- which costs $1)8 million for FYs 2009-
 201 I ... and implementil1g the thirty:five 2020 Cei1Sus research projects. "




FINAL REPORT NO. OIG-12-023-1                                                                      24
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL




                                                                                                              2



     Census Bureau response: The actual expenditures for the 20 l 0 CJ>EX in fiSCal years 2009
     through 2011 were $68. 1 mil lion combined, while the budget for tiscal year 2012 is currentl y
     $11.2 million and the funding request for fiscal year 20 13 is $7.3 million.


     Page 9: Recommendation 1 - Prioritize further the 2010 CPEX studies, and.focus program
     resources, to ensure thCII the most critical swdies affecting the cost and quality ofthe
     2020 Census are completed

     Census Bureau response: Since the time the 0 10 conducted this revic\v, !he Census Bureau
     underwent a series of activities to ensure that the most critical studies affecting the cost and
     quality of the 2020 Census arc completed. First, the 20 10 CPEX staff worked directly with
     management who oversee curly 2020 Census research and testing efforts to identify the
     53 2010 CPEX studies from which resultS were deemed criti cal to early decennial census
     planning. When we rece ived significantly lower than requested appropriations from Congress
     for fiscal year 2012, the Census Bureau bad to identify 20 studies for cancelation leaving us with
     the current I00 studies . We removed from consideration any studies where findings had already
     been presented to the ESC tor Census Assessments and Research, as well as any studies that
     were designated as critical to early 2020 Census efforts (see 2010 Decennial Census Program
     Decision Memorandum Series, Memorandum 38 for more information on this process).
     Therefore, it is important to note that none of the studies designated as critical to early 2020
     Census resea.rch and testing were eliminated from the
     20 l0 CI'EX program.

     We conduct regular briefings on the progress of the prognun to various stakeholders including:

         •   weekly check-i ns \\~th the Associate Directors for 20 10 and 2020 Censuses, and Division
             Chief for 2020 Research and Planning Office where we present the 20 I0 CPEX
             dashboard showing the number of reports briefed to the ESC, reports submitted for final
             review, and reports that have been finalized and released for the overall program,
         •   monthly progress reports to the Deputy Director on the 20 I0 CPEX dashboards and the
             ESC briefing dates for each 2010 CPEX study, and
         •   monthly swtus reports to the Office of Management and Budget and DOC on the overall
             progress of the 20 I0 CI'EX program.

     We also monitor the progress of individual report.~ through the use of l.'J)Cciali~..ed tracking tools
     and through continuous exchanges with individual authors, managers, and stakeholders. We
     utilized this approach to ensure appropriate resource loading and timely availability of accurate
     findings from all 2010 CPEX studies.

     In the case of d1e concerns raised about the delayed public release of the Address Canvassing
     Assessment, we identilied the need for more critical review of the preliminary findings that were
     delivered on March 24,201 1. Between March 2011 and January 2012, thc Bureau worked to
     discuss. debate. and fine-tune our interpretations of the findings so that we could present the
     most accurate and well-rounded portrayal of the Address Canvassing Operation. As part of this




FINAL REPORT NO. OIG-12-023-1                                                                                     25
U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL



                                                                                                       3



   process, the Bureau held discussions on fi ndings from the Address Canvassing Operation with
   oversight g roups including the National Academy of Sciences and t he Office of lnspector
   General in August 20 11. As a result of these efforts, preliminary findings were availab le to
   relevant stakeholders to assist in the development of research plans related to future address
   canvassing operations. While not all extemal stakeholders had the benefit of this briefing before
   the final reports were posted on the web, we believe we an: balancing the maximum gains of
   sharing information from the CPEX program while addressing fiscal constraints. Also, we
   consistently monitor the resources available to individual studies to ensure the timely production
   of results. To date) authors or managers have not contacted us with a request for additional
   human resources due to loss of key staff during critical periods.


   Page 9: Recommcndn tion 2 - Improve the transparency of the 20 I 0 CP EX program by po.sling
   study plans, expected publication dutes for the 109 studies, und final reports online as soon as
   practicable so that stakeholders can review and moniwr the Bureau 's progress in redesigning
   the 2020 Census.

   Census Bureau response: Currently, there are I 00 sLudics in scope for the 2010 CPEX, not
   109 as the report indicates. Of these I 00 studies, we have already received the first drafts for
   two-thirds of them that detail preliminary findings. The findings for 56 of these studies have
   been briefed to the ESC. We have finalized 21 of the reports and published Lhem on our Web
   site at <http://2010.census.gov/2010census/about/cpex.php> . This Web site provides some
   backgroLmd information on the 20 10 CPEX process as well as provides various methods to
   access the final reports from 20 I 0 CPEX studies- including which 2020 Census investment
   area they pertain to.


   General Comments

   Page 5:
        •   Correct the report throughout to show total l 00 CPEX studies, not 109.

        •   The Address Canvas:;ing Operations assessment was released January 2012, not
            September 20 II as the chart caption indicates.




FINAL REPORT NO. OIG-12-023-1                                                                          26
U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL




                                                                                                        4



  Page 6:
     • The eSC that is hearing briefi ngs of CPEX results is not the 2020 ESC as st:ucd in the
         rcpon , but the ESC for Census Assessments and Research. l 'he briefi ngs actually suu1cd
         in J\pril 2011 , not July20 l l.
  Page 7:
     • Correct the first sentence in paragraph I to show that there were SJ. not 52, studies
         among the I 00 thnt hnd been identified as critical , and nine, ro.ther than seven, were
         released by February 8.

       •   Correct paragraph 2 to show there were 53 critica l Studies. not 50. Although the report·
           claims 2 critical studies were eliminated, none of the 53 studies originall y described as
           critical have been eliminated. The total re mains at 53.




12CENSUS2120 





FINAL REPORT NO. OIG-12-023-1                                                                           27
